Audit Report, “Security of [a NASA Center’s Computer] Network” (IG-06-008, June 2,
2006)

The NASA Office of Inspector General conducted an audit to determine whether [a
NASA Center] had implemented adequate information technology security controls to
provide reasonable assurance of network security to protect NASA data and systems
against possible compromise.

The NASA Center’s controls did not provide reasonable assurance of network security.
Specifically, system administrators did not (1) periodically review critical firewall audit
logs and modems used to protect the computer network; (2) monitor for the use of files
and commands with security risks; (3) consistently perform system backups; and (4) meet
NASA requirements for storing backup media. System administrators also accessed a
key server containing security information without adequate encryption and did not
remove unnecessary services from the network. Further, software patches were not
timely installed to fix security weaknesses in the network servers and vulnerabilities
found during security scans of the systems were not corrected in a timely manner.
Finally, NASA did not have a formal policy for laptops or other electronic devices used
by foreign nationals visiting the NASA Center or working onsite. Weaknesses in these
areas could lead to the compromise of the computer network.

We recommended that the NASA Center take actions to improve security controls over
the network, to include developing, implementing, and enforcing procedures and controls
over auditing and monitoring, the use of software and unnecessary services, the
installation of patches, and system backups. We also recommended that the Center
develop and implement a formal policy to prohibit foreign nationals’ onsite use of their
own laptops and other electronic devices.

NASA concurred with 9 of our 13 recommendations and had taken or planned corrective
actions to improve security controls over the computer network. We considered
management’s actions to be responsive to eight of those nine recommendations. Of the
eight, we closed four recommendations and considered four resolved but open pending
verification of the proposed actions. In addition, of the four recommendations with
which management nonconcurred, we considered the proposed corrective actions for
three to be responsive and have closed those recommendations.

We did not consider management’s comments on two recommendations to be responsive
and requested additional comments in response to the final report.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
